Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 1 of 7

APPENDIX 1

Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 2 of 7

Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 3 of 7

Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 4 of 7

Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 5 of 7

Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 6 of 7

Case 3:17-cr-00033-DPJ-LRA Document 21 Filed 01/30/18 Page 7 of 7

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 1 of 7

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA
V.

CRIMINAL NO. 3:17-CR-33-DPJ-LRA

ZARIA FRANCO
ORDER
Defendant Zaria Franco asks the Court to reduce her sentence under 18 U.S.C.
§ 3582(c)(1)(A) “to time served, imposing a term of supervised release of about six months in
addition to the three years [already] imposed . . . to be served on home detention.” Mot. [24].
Franco claims that her medical condition, coupled with the ongoing novel Coronavirus
pandemic, provide “extraordinary and compelling reasons” to justify her release from
confinement. 18 U.S.C. § 3582(c)(1)(A). Because Franco has not yet exhausted her
administrative remedies under § 3582(c)(1)(A), her motion is denied without prejudice.
I.

Facts and Procedural History
On March 14, 2017, Franco pleaded guilty to violating 18 U.S.C. § 1952(a)(3) based on

her role in transporting drugs and the proceeds of drug sales between Texas and Mississippi. On
January 23, 2018, the Court sentenced Franco to 37 months’ imprisonment, with a self-report
date of March 3, 2018.
Franco, a 30-year-old Hispanic female, suffers from hypertension. At the time she filed
her motion, Franco was housed at Federal Prison Camp Bryan in Bryan, Texas, but she has since
been moved to the Residential Reentry Management facility in San Antonio, Texas. According
to the Bureau of Prisons (BOP) website, Franco’s projected date of release from the halfway
house is October 22, 2020.

APPENDIX 2

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 2 of 7

II.

Analysis
The threshold issue is whether the Court has authority to consider Franco’s motion. She

invokes 18 U.S.C. § 3582(c)(1)(A)(i), which states:
The court may not modify a term of imprisonment once it has been imposed
except that . . . the court, upon motion of the Director of the Bureau of Prisons, or
upon motion of the defendant after the defendant has fully exhausted all
administrative rights to appeal a failure of the Bureau of Prisons to bring a motion
on the defendant’s behalf or the lapse of 30 days from the receipt of such a
request by the warden of the defendant’s facility, whichever is earlier, may reduce
the term of imprisonment (and may impose a term of probation or supervised
release with or without conditions that does not exceed the unserved portion of
the original term of imprisonment), after considering the factors set forth in
section 3553(a) to the extent that they are applicable, if it finds that . . .
extraordinary and compelling reasons warrant such a reduction . . . .
(Emphasis added). The parties agree that Franco did not exhaust as contemplated by the statute.
Mot. [24] ¶ 32; Resp. [26] at 7.1
Despite that shortcoming, Franco says “[t]he Court can waive the 30-day requirement for
exhaustion of administrative remedies due to the high risk that Ms. Franco could become
infected with COVID-19.” Reply [28] at 7. In making that argument, Franco abandons the
statutory text and overlooks relevant Supreme Court precedent.
The Court’s analysis of the statutory exhaustion requirement “begins with the text.” Ross
v. Blake, 136 S. Ct. 1850, 1856 (2016). As noted, § 3582(c)(1) states that “the court may not”
modify Gates’s sentence until she exhausts her remedies. Nothing in § 3582(c) grants authority
to waive this requirement.
Franco’s legal authority does not say otherwise. According to her, “courts throughout the
country have continued to waive the administrative exhaustion requirements under the First Step

1

When the Court discusses § 3582(c)’s exhaustion requirement, it refers to either of the two
alternatives provided by the statute: complete exhaustion of denial of a request that BOP file a
motion on the inmate’s behalf or the expiration of 30 days from that request with no response
from BOP.
2

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 3 of 7

Act, where circumstances warrant.” Reply [28] at 8. To support that contention, Franco cites
cases where the inmates sought sentence modifications under different First Step Act provisions
through petitions filed under 28 U.S.C. § 2241. See Gurzi v. Marques, No. 18-CV-3104-NEBKMM, 2019 WL 6481212, at *2 (D. Minn. Oct. 10, 2019); Washington v. Bur. of Prisons, No.
1:19-CV-01066, 2019 WL 6255786, at *2 (N.D. Ohio July 3, 2019). Significantly though, the
exhaustion requirements for § 2241 are judicially created. See Mayberry v. Pettiford, 74 F.
App’x 299, 299 (5th Cir. 2003) (noting that exhaustion under § 2241 is a judicially created
mandate); see also Leuth v. Beach, 498 F.3d 795, 797 n.3 (8th Cir. 2007) (explaining that the
exhaustion requirement under 2241 is “judicially created, not jurisdictional”).
When—as here—Congress requires exhaustion, the obligations become mandatory. The
United States Supreme Court explained why in Ross v. Blake, while examining the statutory
exhaustion requirements under the Prison Litigation Reform Act (PLRA), 42 U.S.C. § 1997e(a).
136 S. Ct. at 1855.2 Although the PLRA itself requires exhaustion, the Fourth Circuit Court of
Appeals concluded that when “special circumstances” exist, district courts have authority to
waive those exhaustion requirements. Id. The Supreme Court disagreed:
No doubt, judge-made exhaustion doctrines, even if flatly stated at first, remain
amenable to judge-made exceptions. See McKart v. United States, 395 U.S. 185,
193, 89 S. Ct. 1657, 23 L. Ed. 2d 194 (1969) (“The doctrine of exhaustion of
administrative remedies . . . is, like most judicial doctrines, subject to numerous
exceptions”). But a statutory exhaustion provision stands on a different footing.
There, Congress sets the rules—and courts have a role in creating exceptions only
if Congress wants them to. For that reason, mandatory exhaustion statutes like
the PLRA establish mandatory exhaustion regimes, foreclosing judicial discretion.
Id. at 1857. As for the Fourth Circuit’s special-circumstances test, the Supreme Court held that
“the PLRA’s text suggests no limits on an inmate’s obligation to exhaust—irrespective of any

2

Section 1997e(a) states: “No action shall be brought with respect to prison conditions under
section 1983 of this title, or any other Federal law, by a prisoner confined in any jail, prison, or
other correctional facility until such administrative remedies as are available are exhausted.”
3

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 4 of 7

‘special circumstances.’ And that mandatory language means a court may not excuse a failure to
exhaust, even to take such circumstances into account.” Id. at 1856.
The same is true here. Like the PLRA, § 3582(c)(1)(A) is a statutory exhaustion
requirement that offers no discretion for judge-made exceptions. Instead, the statute states that
the Court “may not” modify Franco’s sentence until she exhausts her remedies. See Valentine v.
Collier, 956 F.3d 797, 804 (5th Cir. 2020) (holding that the PLRA’s “exhaustion obligation is
mandatory—there are no ‘futility or other [judicially created] exceptions [to the] statutory
exhaustion requirements’”) (quoting Booth v. Churner, 532 U.S. 731, 741 n.6 (2001)). When a
mandatory exhaustion rule like this exists, the Court “must enforce the rule if a party ‘properly
raise[s]’ it.” Fort Bend Cty. v. Davis, 139 S. Ct. 1843, 1849 (2019). In this case, the
Government raised Franco’s failure to exhaust.3
On a final note, the Court shares Franco’s concern for inmate safety. That said,
courts from across the country have concluded that they lack authority to waive
§ 3582(c)(1) even when faced with COVID-19 outbreaks. See United States v. Raia, 954 F.3d
594, 597 (3d Cir. 2020) (noting that failure to exhaust “presents a glaring roadblock foreclosing
compassionate release at this point”); see also United States v. Van Sickle, No. 18-250-JLR, 2020
WL 2219496, at *4 (W.D. Wash. May 7, 2020) (“[B]oth this court and other district courts in the
ninth circuit which have considered this issue have nearly unanimously concluded that failure to
exhaust administrative remedies is fatal to a compassionate release motion even in light of the

3

Some courts have held that waiver is beside the point because § 3582(c)(1) is jurisdictional.
See, e.g., United States v. Black, No. 2:12-CR-263-3, 2020 WL 2213892, at *2 (S.D. Ohio May
7, 2020) (“The exhaustion requirement contained in § 3582(c)(1)(A) is jurisdictional and cannot
be waived, even due to emergencies such as the COVID-19 pandemic.”) (collecting cases).
Whether that is true is debatable but irrelevant in the present case because the Government has
not waived exhaustion.
4

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 5 of 7

urgency created by COVID-19.”); United States v. McIndoo, No. 1:15-CR-142-EAW, 2020 WL
2201970, at *9 (W.D.N.Y. May 6, 2020) (“[I]n the absence of waiver or facts amounting to
estoppel, this Court is without the authority to excuse Defendant’s failure to comply with
§ 3582(c)(1)(A)’s exhaustion requirement.”); United States v. Pack, No. 2:17-CR-20002-10,
2020 WL 2174447, at *2 (W.D. Tenn. May 5, 2020) (concluding that because defendant did not
exhaust, “[t]he Court does not have authority to consider [his] Motion” under § 3582(c)); United
States v. Roberts, No. 15-135-01, 2020 WL 2130999, at *2 (W.D. La. May 5, 2020) (“Section
3[58]2(c)(1)(A) does not provide this Court with the equitable authority to excuse Roberts’
failure to exhaust his administrative remedies or to waive the 30-day waiting period.”); United
States v. Brown, No. 04-CR-143-DRH, 2020 WL 2128861, at *3 (E.D.N.Y. May 5, 2020)
(“While the current health emergency warrants consideration of compassionate release requests
in an expedited manner, Section 3582 does not allow for the waiver of exhaustion due to exigent
circumstances.”); United States v. Gomez, No. 2:18-CR-1435-1, 2020 WL 2061537, at *1 (S.D.
Tex. Apr. 29, 2020) (observing that “[c]ourts in the Southern District of Texas have ruled that
defendants who move for compassionate release still need to exhaust administrative rights . . . in
order to bring a motion pursuant to 18 U.S.C. § 3582(c)(1)(A)” (collecting cases)); United States
v. Nevers, No. 16-088, 2020 WL 1974254, at *2 (E.D. La. Apr. 24, 2020) (“Because the Court
cannot consider Petitioner’s request for instant release or home confinement until she has
complied with the exhaustion requirements of § 3582(c)(1)(A), the Court must deny the instant
motion for failure to comply with the mandatory exhaustion requirements under
§ 3582(c)(1)(A).”). Franco must comply with § 3582(c)(1)(A).4

A few courts have reached a different conclusion by ignoring the words “may not” in their
statutory construction and suggesting that the remaining language in § 3582(c)(1)(A) is less strict
than the PLRA language Ross found to be mandatory. According to them, inmates may bypass
4

5

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 6 of 7

III.

Conclusion
The Court has considered all arguments. Those not addressed would not have changed

the outcome. For the foregoing reasons, Franco’s Motion for Reduction of Sentence Pursuant to
18 U.S.C. § 3582(c)(1)(A)(i) is denied without prejudice. Franco may re-file her motion once
she achieves one of the two avenues for exhaustion under § 3582(c)(1)(A).5

exhaustion altogether by simply waiting 30 days after making a request to the warden, so unlike
under the PLRA, exhaustion is not mandatory. With deference, the words “may not” are critical.
A court “may not reduce a term of imprisonment” unless the inmate first makes a request to the
warden and either appeals an adverse ruling or receives no response within 30 days. 18 U.S.C.
§ 3582(c)(1)(A). That the inmate can proceed after making a request and waiting 30 days does
not mean the request was never mandated. Indeed the 30-day waiting period is a statutory
futility exception like the one in the PLRA. As Ross notes, the PLRA “contains its own, textual
exception to mandatory exhaustion” making judge-made exceptions improper. 136 S. Ct. at
1858. Section 1997(e)(a) states that inmates must exhaust “available remedies.” Accordingly,
inmates “must exhaust available remedies, but need not exhaust unavailable ones.” Ross, 136 S.
Ct. at 1858. At bottom, § 3582(c)(1)(A) provides two exceptions to the dictate that courts “may
not reduce a term of imprisonment,” both of which require an initial request to the warden. 18
U.S.C. § 3582(c)(1)(A). The statute provides no basis for creating exceptions.
5

The Court anticipates that Franco will refile her motion once she exhausts administrative
remedies. When she does, the parties may brief the issues they deem relevant. That said, they
are instructed to at minimum address three specific points. First, Franco asks the Court to “grant
her incarceration of time-served, followed by an additional supervised release term of six months
tacked on to the current three years of supervised release” to be “served on home confinement.”
Mot. [24] ¶ 43. The statutory maximum sentence for the crime of conviction is 5 years’
incarceration, making it a Class D felony, for which the maximum available term of supervised
release is 3 years. 18 U.S.C. § 1952(a)(3); 18 U.S.C. § 3559(a)(4); 18 U.S.C. § 3583(b)(2). So
Franco has already received the maximum period of supervised release permitted by the statute.
The parties should address whether Franco’s original request could be accommodated
considering these facts. Alternatively, Franco argues that the Court “can simply resentence [her]
to serve the remainder of her sentence in home confinement.” Mot. [24] ¶ 43; see also Reply
[28] at 20 (requesting that the Court “order her immediate release from prison, and further order
that she immediately serve the remainder of her sentence on home confinement”). Section
3582(c)(1)(A) allows the court to “modify the term of imprisonment,” but it does not mention
modifying the physical location where the defendant serves her term. Some courts have
therefore held that they lacked authority to order a defendant to home confinement. See, e.g.,
United States v. Johnson, No. CR 17-165, 2020 WL 2526965, at *2 (E.D. La. May 18, 2020).
The parties should address this point as well. Finally, the parties should address whether
Franco’s purported health condition creates an extraordinary and compelling reason to modify
the sentence considering the incidents of COVID-19 at her current facility.
6

Case 3:17-cr-00033-DPJ-LRA Document 29 Filed 06/10/20 Page 7 of 7

SO ORDERED AND ADJUDGED this the 10th day of June, 2020.
s/ Daniel P. Jordan III
CHIEF UNITED STATES DISTRICT JUDGE

7

Case: 20-60473

Document: 00515552770

Page: 1

Date Filed: 09/03/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
September 3, 2020

No. 20-60473

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Zaira Franco,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:17-CR-33-1
Before Barksdale, Elrod, and Ho, Circuit Judges.
Jennifer Walker Elrod, Circuit Judge:
Zaira Franco appeals the denial of her motion for reduction of
sentence (commonly known as a motion for compassionate release), filed
pursuant to the First Step Act. The question on appeal is whether Franco is
excused from that statute’s textual requirement that she file a request with
the Bureau of Prisons before filing her motion in federal court. We conclude
that she is not so excused, and we affirm the district court’s denial of her
motion.

APPENDIX 3

Case: 20-60473

Document: 00515552770

Page: 2

Date Filed: 09/03/2020

No. 20-60473

I.
In January 2018, Zaira Franco was sentenced to serve 37 months in
prison, followed by three years of supervised release. Franco resides at the
Residential Reentry Management Facility (colloquially known as a halfway
house) in San Antonio, Texas, and has a scheduled release date of October
22, 2020.
In April 2020, pursuant to 18 U.S.C. § 3582(c)(1)(A), she filed a
COVID-19 related motion for reduction of sentence in the district court. In
her motion, Franco conceded that she had failed to comply with the statute’s
procedural commands, but requested that due to the COVID-19 pandemic,
the requirements “as set out in 18 U.S.C. § 3582(c)(1)(A) . . . be excused due
to exigent circumstances.” The district court denied the motion without
prejudice and noted that “Franco may re-file her motion once she achieves
one of the two avenues for exhaustion under § 3582(c)(1)(A).”
II.
As a general rule, federal courts “may not modify a term of
imprisonment once it has been imposed.” 18 U.S.C. § 3582(c). Prior to the
passage of the First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194
(2018), federal courts lacked the power to adjudicate motions for
compassionate release. Now, however, a “court . . . may reduce the term of
imprisonment” upon request by an inmate. 18 U.S.C. § 3582(c)(1)(A). In
the words of the statute, courts may hear requests
upon motion of the defendant after the defendant has fully
exhausted all administrative rights to appeal a failure of the
Bureau of Prisons to bring a motion on the defendant’s behalf
or the lapse of 30 days from the receipt of such a request by the
warden of the defendant’s facility, whichever is earlier . . . .
Id.

2

Case: 20-60473

Document: 00515552770

Page: 3

Date Filed: 09/03/2020

No. 20-60473

The text therefore outlines two routes a defendant’s motion can
follow to be properly before the court. Both routes begin with the defendant
requesting that “the Bureau of Prisons” “bring a motion on the defendant’s
behalf.” Id.
Franco concedes that she did not request that “the Bureau of
Prisons” “bring a motion on [her] behalf.” See id. Thus, we must determine
whether that requirement is jurisdictional (in which case we lack power to
hear this case) and if not, whether the requirement is mandatory (in which
case Franco cannot prevail on the merits of her motion). We conclude that
the requirement is not jurisdictional, but that it is mandatory. We review both
of these questions of statutory interpretation de novo. See United States v.
Lauderdale County, 914 F.3d 960, 964 (5th Cir. 2019).
III.
The

Supreme

Court

distinguishes

“between

jurisdictional

prescriptions and nonjurisdictional claim-processing rules.” Fort Bend Cnty.
v. Davis, 139 S. Ct. 1843, 1849 (2019). The former limit the circumstances in
which Article III courts may exercise judicial power; the latter “seek to
promote the orderly progress of litigation by requiring that the parties take
certain procedural steps at certain specified times.” Henderson v. Shinseki,
562 U.S. 428, 435 (2011). Provisions are only considered jurisdictional when
“the Legislature clearly states that [the] prescription counts as
jurisdictional.” Fort Bend Cnty., 139 S. Ct. at 1850.
Nothing in the text of this provision indicates that the procedural
requirements are jurisdictional. Instead, the provision instructs a defendant
to either “fully exhaust[] all administrative rights to appeal” the BOP’s
failure to bring a motion or wait for thirty days after the warden’s receipt of
the request before filing a motion in federal court. 18 U.S.C. § 3582(c)(1)(A).
We agree with the recent, cogent analysis of this question by the Sixth
Circuit: the “language neither ‘speak[s] in jurisdictional terms’ nor ‘refer[s]
in any way to the jurisdiction’ of the courts.” United States v. Alam, 960 F.3d

3

Case: 20-60473

Document: 00515552770

Page: 4

Date Filed: 09/03/2020

No. 20-60473

831, 833 (6th Cir. 2020) (Sutton, J.) (alterations in original) (quoting Zipes v.
Trans World Airlines, Inc., 455 U.S. 385, 394 (1982)).

The statute’s

requirement that a defendant file a request with the BOP before filing a
motion in federal court is a nonjurisdictional claim-processing rule.
IV.
Next, we must determine whether that statutory requirement is
mandatory. We join the other three circuits that have faced the question and
conclude that it is. See Alam, 960 F.3d at 832; United States v. Raia, 954 F.3d
594, 597 (3d Cir. 2020); United States v. Springer, No. 20-5000, 2020 WL
3989451, at *3 (10th Cir. July 15, 2020).
The First Step Act, in clear language, specifies what a defendant must
do before she files a motion for compassionate release in federal court.
Specifically a defendant must submit a request to “the Bureau of Prisons to
bring a motion on the defendant’s behalf.” 18 U.S.C. § 3582(c)(1)(A).
The statute’s language is mandatory. Congress has commanded that
a “court may not modify a term of imprisonment” if a defendant has not filed
a request with the BOP. See id. § 3582(c) (emphasis added). This rule
“seek[s] to promote the orderly process of litigation by requiring that the
parties take certain procedural steps at certain specified times.” Henderson,
562 U.S. at 435. It is a paradigmatic mandatory claim-processing rule. And
because the government properly raised the rule in the district court, this
“court must enforce the rule.” Pierre-Paul v. Barr, 930 F.3d 684, 692 (5th
Cir. 2019) (emphasis added), cert. denied, 206 L. Ed. 2d 854 (Apr. 27, 2020).
Franco’s arguments to the contrary are unavailing. First, she argues
that the requirement cannot be mandatory because the statute permits two
different routes a defendant may take before filing a motion in court. But
both of those routes (filing a motion after the BOP’s denial or filing a motion
30 days after receipt by the warden) require the defendant to first file a
request with the BOP. And Franco concedes she never filed such a request.

4

Case: 20-60473

Document: 00515552770

Page: 5

Date Filed: 09/03/2020

No. 20-60473

Nor are we inclined to deviate from this clear text in pursuit of the
statute’s broader “purpose” or “intent.”

We need not dive “inside

Congress’s mind” to determine the statutory intent here. Cf. John F.
Manning, Inside Congress’s Mind, 115 Colum. L. Rev. 1911, 1919 (2015)
(noting that textualists, legal realists, modern pragmatists, and legal process
scholars share doubts about “an actual subjective congressional decision
about the litigated issue”). Congress used clear language: all requests for
compassionate release must be presented to the Bureau of Prisons before they
are litigated in the federal courts. When the text is clear, that is “the end of
the construction.” Hightower v. Tex. Hosp. Ass’n, 65 F.3d 443, 450 (5th Cir.
1995). We need go no further.
Finally, Franco maintains that the statutory requirement does not
apply to her because she resides in a halfway house. The statute refers to
“receipt of such a request by the warden of the defendant’s facility.” 18 U.S.C.
§ 3582(c)(1)(A) (emphasis added). Franco notes that she “is housed at a
Residential Reentry Management Facility, which has no warden.” But this
apparent problem has a simple solution. Bureau of Prisons regulations define
the “warden” to include “the chief executive officer of . . . any federal penal
or correctional institution or facility.” 28 C.F.R. § 500.1(a); cf. United States
v. Campagna, 16 CR. 78-01 (LGS), 2020 WL 1489829, at *3 (S.D.N.Y. Mar.
27, 2020) (holding that “the denial of Defendant’s request by the Residential
Re-entry Manager suffices to exhaust his administrative rights”). Franco is
free to file her request with the chief executive officer of her facility.
*

*

*

This opinion will, at the least, provide clarity about this important
relief. Definite legal rules are knowable ex ante, evenhanded in application,
and favor certainty and predictability. Cf. Lon Fuller, Morality of Law 39
(1969) (identifying, inter alia, generality, public accessibility, clarity, and
constancy as requirements of a legal system). In this case, the district judge
denied Franco’s motion without prejudice, and allowed her to “re-file her

5

Case: 20-60473

Document: 00515552770

Page: 6

Date Filed: 09/03/2020

No. 20-60473

motion once she achieve[d] one of the two avenues for exhaustion under
§ 3582(c)(1)(A).” Instead, Franco appealed, hoping for a favorable ruling.
Going forward, no other defendants need face this uncertainty. Those who
seek a motion for compassionate relief under the First Step Act must first file
a request with the BOP. The judgment of the district court is AFFIRMED
and Zaira Franco remains free to file, in the first instance, a request with the
Bureau of Prisons.

6

Case: 20-60473

Document: 00515552795

Page: 1

Date Filed: 09/03/2020

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED

No. 20-60473
___________

September 3, 2020
Lyle W. Cayce
Clerk

United States of America,

Plaintiff—Appellee,
versus
Zaira Franco,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:17-CR-33-1
____________________________
Before Barksdale, Elrod, and Ho, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

United States v. Franco, --- F.3d ---- (2020)

2020 WL 5249369
Only the Westlaw citation is currently available.
United States Court of Appeals, Fifth Circuit.

[2]

170B Federal Courts
170BII Jurisdiction, Powers, and Authority in
General
170BII(A) In General
170Bk2030 Grounds or Exclusions of Jurisdiction
in General
170Bk2031 In general

UNITED STATES of America, Plaintiff-Appellee,
v.
Zaira FRANCO, Defendant-Appellant.
No. 20-60473
|
FILED September 3, 2020
Synopsis
Background: Federal inmate moved for compassionate
release based on COVID-19 pandemic. The United States
District Court for the Southern District of Mississippi, Daniel
P. Jordan, Chief Judge, 2020 WL 3086251, denied motion for
failure to exhaust administrative remedies. Inmate appealed.

Non-jurisdictional claim processing rules seek
to promote the orderly progress of litigation by
requiring that the parties take certain procedural
steps at certain specified times.
2 Cases that cite this headnote
[3]

Provisions are only considered jurisdictional
when the Legislature clearly states that the
prescription counts as jurisdictional.

Affirmed.
[4]

Grounds or Exclusions of
Federal Courts
Jurisdiction in General

Proceedings

Requirement in the First Step Act that a
defendant file a request for reduction of sentence
with the Bureau of Prisons (BOP) before filing
a motion in federal court is a nonjurisdictional

170B Federal Courts
170BII Jurisdiction, Powers, and Authority in
General
170BII(A) In General
170Bk2030 Grounds or Exclusions of Jurisdiction
in General
170Bk2031 In general

Jurisdictional
prescriptions
limit
the
circumstances in which Article III courts may
exercise judicial power. U.S. Const. art. 3, § 1.

Sentencing and Punishment

350H Sentencing and Punishment
350HXII Reconsideration and Modification of
Sentence
350HXII(C) Proceedings
350HXII(C)1 In General
350Hk2270 In general

West Headnotes (7)
[1]

Federal Courts
Grounds or Exclusions of
Jurisdiction in General
170B Federal Courts
170BII Jurisdiction, Powers, and Authority in
General
170BII(A) In General
170Bk2030 Grounds or Exclusions of Jurisdiction
in General
170Bk2031 In general

[Holding:] The Court of Appeals, Elrod, Circuit Judge, held
that as an issue of first impression in the Circuit, requirement
in First Step Act that a defendant file a request for reduction of
sentence with Bureau of Prisons (BOP) before filing a motion
in federal court is mandatory.

Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.

Federal Courts
Grounds or Exclusions of
Jurisdiction in General

claim-processing rule.
(1)(A).

18 U.S.C.A. § 3582(c)

21 Cases that cite this headnote
[5]

Sentencing and Punishment

Proceedings

350H Sentencing and Punishment

APPENDIX 4
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Franco, --- F.3d ---- (2020)
350HXII Reconsideration and Modification of
Sentence
350HXII(C) Proceedings
350HXII(C)1 In General
350Hk2270 In general

Requirement in the First Step Act that a
defendant file a request for reduction of sentence
with the Bureau of Prisons (BOP) before filing
a motion in federal court is mandatory; rule
states that a “court may not modify a term of
imprisonment” if a defendant has not filed a
request with the BOP.
(1)(A).

18 U.S.C.A. § 3582(c)

Statutes
Absence of Ambiguity;
Application of Clear or Unambiguous Statute
or Language
361 Statutes
361III Construction
361III(C) Clarity and Ambiguity; Multiple
Meanings
361k1107 Absence of Ambiguity; Application of
Clear or Unambiguous Statute or Language
361k1108 In general

When the text is clear, that is the end of the
statutory construction.

[7]

Sentencing and Punishment

Inmate housed at residential reentry management
facility was required to file a request for release
with the Bureau of Prisons (BOP) prior to
filing motion for compassionate relief under the
First Step Act; although facility had no warden,
inmate could file request with chief executive
18 U.S.C.A. § 3582(c)(1)

18 Cases that cite this headnote

Gregory Layne Kennedy, Esq., Assistant U.S. Attorney,
Meghan McCalla, Christopher L. Wansley, Assistant U.S.
Attorney, U.S. Attorney's Office, Southern District of
Mississippi, Jackson, MS, Gaines H. Cleveland, Assistant
U.S. Attorney, U.S. Attorney's Office, Southern District of
Mississippi, Gulfport, MS, for Plaintiff-Appellee

Before Barksdale, Elrod, and Ho, Circuit Judges.
Opinion
Jennifer Walker Elrod, Circuit Judge:
*1 Zaira Franco appeals the denial of her motion for
reduction of sentence (commonly known as a motion for
compassionate release), filed pursuant to the First Step Act.
The question on appeal is whether Franco is excused from that
statute's textual requirement that she file a request with the
Bureau of Prisons before filing her motion in federal court.
We conclude that she is not so excused, and we affirm the
district court's denial of her motion.

Proceedings

350H Sentencing and Punishment
350HXII Reconsideration and Modification of
Sentence
350HXII(C) Proceedings
350HXII(C)1 In General
350Hk2270 In general

officer of facility.
(A).

Attorneys and Law Firms

Jacinta Hall, Thomas Creagher Turner, Jr., Esq., Federal
Public Defender's Office, Southern District of Mississippi,
Jackson, MS, for Defendant-Appellant

24 Cases that cite this headnote
[6]

Appeal from the United States District Court for the Southern
District of Mississippi, USDC No. 3:17-CR-33-1, Daniel P.
Jordan, III, Chief Judge

I.
In January 2018, Zaira Franco was sentenced to serve
37 months in prison, followed by three years of
supervised release. Franco resides at the Residential Reentry
Management Facility (colloquially known as a halfway
house) in San Antonio, Texas, and has a scheduled release
date of October 22, 2020.
In April 2020, pursuant to
18 U.S.C. § 3582(c)(1)(A), she
filed a COVID-19 related motion for reduction of sentence
in the district court. In her motion, Franco conceded that she
had failed to comply with the statute's procedural commands,
but requested that due to the COVID-19 pandemic, the
requirements “as set out in
18 U.S.C. § 3582(c)(1)(A) ...
be excused due to exigent circumstances.” The district court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Franco, --- F.3d ---- (2020)

denied the motion without prejudice and noted that “Franco
may re-file her motion once she achieves one of the two
avenues for exhaustion under

§ 3582(c)(1)(A).”

II.
As a general rule, federal courts “may not modify a term
of imprisonment once it has been imposed.”
18 U.S.C. §
3582(c). Prior to the passage of the First Step Act of 2018,
Pub. L. No. 115-391, 132 Stat. 5194 (2018), federal courts
lacked the power to adjudicate motions for compassionate
release. Now, however, a “court ... may reduce the term of
imprisonment” upon request by an inmate.
18 U.S.C. §
3582(c)(1)(A). In the words of the statute, courts may hear
requests

upon motion of the defendant after
the defendant has fully exhausted all
administrative rights to appeal a failure
of the Bureau of Prisons to bring a
motion on the defendant's behalf or
the lapse of 30 days from the receipt
of such a request by the warden of
the defendant's facility, whichever is
earlier....

Id.
The text therefore outlines two routes a defendant's motion
can follow to be properly before the court. Both routes begin
with the defendant requesting that “the Bureau of Prisons”
“bring a motion on the defendant's behalf.” Id.
Franco concedes that she did not request that “the Bureau of
Prisons” “bring a motion on [her] behalf.” See id. Thus, we
must determine whether that requirement is jurisdictional (in
which case we lack power to hear this case) and if not, whether
the requirement is mandatory (in which case Franco cannot
prevail on the merits of her motion). We conclude that the
requirement is not jurisdictional, but that it is mandatory. We
review both of these questions of statutory interpretation de
novo. See
United States v. Lauderdale County, 914 F.3d
960, 964 (5th Cir. 2019).

III.
[1]
[2]
[3] The Supreme Court distinguishes “between
jurisdictional prescriptions and nonjurisdictional claimprocessing rules.”
Fort Bend Cnty. v. Davis, ––– U.S.
––––, 139 S. Ct. 1843, 1849, 204 L.Ed.2d 116 (2019). The
former limit the circumstances in which Article III courts may
exercise judicial power; the latter “seek to promote the orderly
progress of litigation by requiring that the parties take certain
procedural steps at certain specified times.”
Henderson v.
Shinseki, 562 U.S. 428, 435, 131 S.Ct. 1197, 179 L.Ed.2d 159
(2011). Provisions are only considered jurisdictional when
“the Legislature clearly states that [the] prescription counts as
jurisdictional.”

Fort Bend Cnty., 139 S. Ct. at 1850.

*2 [4] Nothing in the text of this provision indicates that
the procedural requirements are jurisdictional. Instead, the
provision instructs a defendant to either “fully exhaust[ ] all
administrative rights to appeal” the BOP's failure to bring a
motion or wait for thirty days after the warden's receipt of the
request before filing a motion in federal court.
18 U.S.C.
§ 3582(c)(1)(A). We agree with the recent, cogent analysis
of this question by the Sixth Circuit: the “language neither
‘speak[s] in jurisdictional terms’ nor ‘refer[s] in any way
to the jurisdiction’ of the courts.”
United States v. Alam,
960 F.3d 831, 833 (6th Cir. 2020) (Sutton, J.) (alterations
in original) (quoting
Zipes v. Trans World Airlines, Inc.,
455 U.S. 385, 394, 102 S.Ct. 1127, 71 L.Ed.2d 234 (1982)).
The statute's requirement that a defendant file a request
with the BOP before filing a motion in federal court is a
nonjurisdictional claim-processing rule.

IV.
[5] Next, we must determine whether that statutory
requirement is mandatory. We join the other three circuits that
have faced the question and conclude that it is. See

Alam,

960 F.3d at 832;
United States v. Raia, 954 F.3d 594, 597
(3d Cir. 2020); United States v. Springer, No. 20-5000, –––
F.3d ––––, ––––, 2020 WL 3989451, at *3 (10th Cir. July 15,
2020).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Franco, --- F.3d ---- (2020)

The First Step Act, in clear language, specifies what
a defendant must do before she files a motion for
compassionate release in federal court. Specifically a
defendant must submit a request to “the Bureau of Prisons
to bring a motion on the defendant's behalf.”
3582(c)(1)(A).

[7] Finally, Franco maintains that the statutory requirement
does not apply to her because she resides in a halfway
house. The statute refers to “receipt of such a request by
the warden of the defendant's facility.”
18 U.S.C. §
3582(c)(1)(A) (emphasis added). Franco notes that she “is
housed at a Residential Reentry Management Facility, which
has no warden.” But this apparent problem has a simple
solution. Bureau of Prisons regulations define the “warden”
to include “the chief executive officer of ... any federal
penal or correctional institution or facility.” 28 C.F.R. §

18 U.S.C. §

The statute's language is mandatory. Congress has
commanded that a “court may not modify a term of
imprisonment” if a defendant has not filed a request with
the BOP. See
id. § 3582(c) (emphasis added). This rule
“seek[s] to promote the orderly process of litigation by
requiring that the parties take certain procedural steps at

500.1(a); cf.
United States v. Campagna, 16 CR. 78-01
(LGS), ––– F.Supp.3d ––––, ––––, 2020 WL 1489829, at
*3 (S.D.N.Y. Mar. 27, 2020) (holding that “the denial of
Defendant's request by the Residential Re-entry Manager
suffices to exhaust his administrative rights”). Franco is free
to file her request with the chief executive officer of her
facility.

certain specified times.”
Henderson, 562 U.S. at 435, 131
S.Ct. 1197. It is a paradigmatic mandatory claim-processing
rule. And because the government properly raised the rule in
the district court, this “court must enforce the rule.” PierrePaul v. Barr, 930 F.3d 684, 692 (5th Cir. 2019) (emphasis
added), cert. denied, ––– U.S. ––––, ––– S.Ct. ––––, 206 L.
Ed. 2d 854 (2020).

*3
***
This opinion will, at the least, provide clarity about this
important relief. Definite legal rules are knowable ex
ante, evenhanded in application, and favor certainty and
predictability. Cf. Lon Fuller, Morality of Law 39 (1969)
(identifying, inter alia, generality, public accessibility, clarity,
and constancy as requirements of a legal system). In this case,
the district judge denied Franco's motion without prejudice,
and allowed her to “re-file her motion once she achieve[d]

Franco's arguments to the contrary are unavailing. First, she
argues that the requirement cannot be mandatory because the
statute permits two different routes a defendant may take
before filing a motion in court. But both of those routes (filing
a motion after the BOP's denial or filing a motion 30 days
after receipt by the warden) require the defendant to first file
a request with the BOP. And Franco concedes she never filed
such a request.
[6] Nor are we inclined to deviate from this clear text in
pursuit of the statute's broader “purpose” or “intent.” We
need not dive “inside Congress's mind” to determine the
statutory intent here. Cf. John F. Manning, Inside Congress's
Mind, 115 Colum. L. Rev. 1911, 1919 (2015) (noting that
textualists, legal realists, modern pragmatists, and legal
process scholars share doubts about “an actual subjective
congressional decision about the litigated issue”). Congress
used clear language: all requests for compassionate release
must be presented to the Bureau of Prisons before they are
litigated in the federal courts. When the text is clear, that
is “the end of the construction.”
Hightower v. Tex. Hosp.
Ass'n, 65 F.3d 443, 450 (5th Cir. 1995). We need go no further.
End of Document

one of the two avenues for exhaustion under
§ 3582(c)(1)
(A).” Instead, Franco appealed, hoping for a favorable ruling.
Going forward, no other defendants need face this uncertainty.
Those who seek a motion for compassionate relief under the
First Step Act must first file a request with the BOP. The
judgment of the district court is AFFIRMED and Zaira Franco
remains free to file, in the first instance, a request with the
Bureau of Prisons.
All Citations
--- F.3d ----, 2020 WL 5249369

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

